                                                     National Railroad Passenger Corporation
                                                     Office of Inspector General
                                                     10 G Street N.E.
	                                                   Washington, DC 20002




                    EMPLOYEE ABUSE OF PERSONAL RAIL TRAVEL
                                 JULY 30, 2013
                               CASE # IL-13-0014

OI found that an Amtrak employee used his own and his dependents’ Rail Travel Privilege Cards
to obtain Amtrak pass rider tickets which he then gave to ineligible persons for travel. This
resulted in a loss of revenue to Amtrak of approximately $10,000. Additionally the employee
admitted to stealing a variety of Amtrak supplies over a period of time. A company hearing
resulted in the employee’s termination.
